   March 13, 2002




Information
System Security
Air Force Web Site Administration,
Policies, and Practices
(D-2002-062)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
GILS                  Government Information Locator Service
JWRAC                 Joint Web Risk Assessment Cell
                       Office of the Inspector General, DoD
Report No. D-2002-062                                                March 13, 2002
   (Project No. D2001AB-0116)

        Air Force Web Site Administration, Policies, and Practices

                                Executive Summary

Introduction. This report is one in a series that address Internet access, practices, and
policies. Subsequent reports will cover Web site administration within the Army and
DoD. The Naval Audit Service plans to issue a separate report based on the audit of
Web site administration within the Navy and the Marine Corps.

This report evaluates Internet access, practices, and policies for Air Force Web site
administration. In April 2001, the Air Force issued “Transmission of Information Via
the Internet,” Air Force Instruction 33-129. Air Force Instruction 33-129 defines the
roles and responsibilities of personnel establishing, revising, and operating an Internet
Web site. It prohibits the display of classified and sensitive information on publicly
accessible Air Force Web sites, and it requires annual reviews to ensure compliance to
Air Force and DoD policy. Air Force Instruction 33-129 also requires major Air Force
commands and wing level commanders to register their Web sites with Air Force Link
that serves as a registration database for data into the Government Information Locator
Service. The Government Information Locator Service helps citizens identify, locate,
and retrieve information about their government.

Objectives. Our objective was to evaluate Air Force policies and practices for Web
site administration and oversight. Specifically, we reviewed how the Air Force hosts
official Web sites and how it registers and monitors Web sites for compliance with
policy and safeguards sensitive information. We also evaluated the management control
program as it related to the overall objective.

Results. The Air Force had not developed adequate plans to annually review its Web
sites. In addition, the listing of Air Force publicly accessible Web sites recorded in Air
Force Link did not match the data reported in Government Information Locator
Service. As a result, the Air Force had 140 publicly accessible Web sites that included
potentially inappropriate information. Further, the process for the removal of sensitive
information was not reliable. In positive actions, the Air Force developed a new
training program for personnel working on Web sites, and oversight of Air Force Web
sites has improved with the establishment of the Air Force Web Risk Assessment Cell.
See Appendix A for details on the management control program concerning the
performance of annual reviews and the establishment of a followup system to ensure all
issues relating to the posting of inappropriate data on Web sites are resolved. For
details of the audit results, see the Finding section of the report.

Summary of Recommendations. We recommend that the Director, Office of Public
Affairs, Department of the Air Force, establish a process to conduct annual multi-
disciplinary reviews of Web sites, report results of the reviews to the Chief Information
Officer, Department of the Air Force, and establish a followup system to ensure
corrective actions are implemented when inappropriate postings are identified. We also
recommend that the Chief Information Officer, Department of the Air Force revise
Air Force Instruction 33-129, “Transmission of Information via the Internet”, April 4,
2001, to require annual reviews that verify and match data in the Air Force Link with
data contained in the Government Information Locator Service.

Management Comments. The Chief Information Officer, Department of the Air
Force, who responded for the Air Force, concurred with the recommendations.
Specifically, the Office of Public Affairs, Department of the Air Force, is establishing a
process to ensure information is screened prior to posting. Web masters will review
Web sites for unauthorized information, and the Office of Public Affairs, Department
of the Air Force, will accomplish annual and spot reviews to verify compliance with
policy and assure content accuracy. The Air Force intends to develop and implement
the review process within 6 months. The Chief Information Officer of the Air Force
also stated that the Deputy Chief of Staff, Communications and Information had already
begun the process of issuing a revised Air Force Instruction 33-129, “Transmission of
Information Via the Internet,” April 4, 2001. In addition, the Chief Information
Officer, Department of the Air Force will ensure that Air Force Link and Government
Information Locator Service data are consistent and that public Web sites do not
disclose inappropriate data.




                                            ii
Table of Contents

Executive Summary                                          i


Introduction
     Background                                            1
     Objectives                                            2

Finding
     Air Force Internet Access, Practices, and Policies   3

Appendixes
     A. Audit Process
         Scope and Methodology                             9
         Management Control Program Review                10
         Prior Audit Coverage                             10
     B. Report Distribution                               12

Management Comments
     Department of the Air Force                          13
Background
           DoD Web Page Policy. The “DoD Web Site Administration Policy and
           Procedures,” (the Policy) implemented December 7, 1998, and updated
           April 26, 2001, describes procedures for establishing, operating, and
           maintaining DoD unclassified Web sites. The Policy requires heads of DoD
           Components to establish a process to identify appropriate information for
           posting to Web sites. The Policy ensures that all information placed on publicly
           accessible Web sites is reviewed for security levels of sensitivity and other
           concerns before the information is released.

           In addition, the Policy requires Components to establish procedures for
           management oversight and a regular functional review of Web sites, and to
           provide necessary resources to support Web site operations including funding,
           staffing, and training. It also requires an annual security assessment of Web
           sites. Moreover, Components must register each publicly accessible Web site
           with the Government Information Locator Service (GILS). GILS helps citizens
           identify, locate, and retrieve information about their government. GILS resides
           on Defense Link, which is the official Web site for DoD and the starting point
           for finding military information online about defense policy, organizations,
           functions, and operations.

           The Policy defines a DoD Web site as a collection of information organized into
           a number of Web documents related to a common subject or set of subjects
           including a Home Page and links to subordinate information that is included on
           a Web page. A Home Page is the index or introductory document for a Web
           site. A Web site is developed and maintained with command sponsorship,
           approval, and editorial supervision over content.

           DoD Oversight of Web Content. On February 25, 1999, the Secretary of
           Defense approved the Joint Web Risk Assessment Cell (JWRAC) plan to use
           Reserve assets to conduct ongoing security and threat assessments of
           Components Web sites. The JWRAC is responsible for analyzing data on DoD
           Web sites for information that poses potential or real threats to ongoing
           operations and DoD personnel. Inappropriate data include data labeled “For
           Official Use Only,” “sensitive,” classified, and other information at one or
           more sites that combined, would be sensitive or classified, and should not be
           released to the general public.

           Air Force Policy on Web Sites. Air Force Instruction 33-129, “ Transmission
           of Information via the Internet,” dated April 4, 2001,1 defines the roles and
           responsibilities of personnel using and maintaining the Internet. It assigns the
           development of policy to the Air Force Director of Communication and
           Information who is the Deputy Chief Information Officer for the Air Force. It
           prohibits the display of offensive and obscene material, and prohibits links to
           offensive or unrelated commercial sites at Air Force Web sites. It also requires

1
    Air Force Instruction 33-129 was originally issued on August 1, 1999.



                                                     1
     Air Force officials to develop procedures for establishing and maintaining a
     public Web site and to conduct multi-disciplinary annual reviews of Web sites.
     The multi-disciplinary annual reviews include representatives from
     communications and information, public affairs, legal, contracting and
     operations, and other necessary disciplines to review questions concerning the
     sensitivity of information on public Web sites.

     Air Force Instruction 35-101, “Public Affairs Policies and Procedures,” dated
     December 1, 1999, defines prohibited information such as links to offensive or
     unrelated commercial material, disclosure of sensitive movements of military
     assets and personnel, locations of units and installations, personal information
     protected under the Privacy Act, copyright information, trademarks and logos,
     and classified information. Air Force Instruction 35-101 requires that the Office
     of Public Affairs serve as the point of contact to conduct the multi-disciplinary
     periodic reviews; determine the appropriateness of content, design, and
     operations of an Air Force Web site; and provide direction for registering public
     Web sites with GILS.

     Air Force Instruction 35-101 further requires major Air Force commands and
     wing level commanders to register their Web sites with Air Force Link, that the
     Office of Public Affairs maintains. The Link serves as a registration database
     for information recorded in GILS. Registration requires that officials record
     information such as Web site title, internet address, major Air Force command,
     base location, point of contact, and other pertinent Web site information.

Objectives
     Our objective was to evaluate Air Force policies and practices for Web site
     administration and oversight. Specifically, we reviewed how the Air Force
     hosts official Web sites, and how it registers and monitors Web sites for
     compliance with policy and safeguards sensitive information. We also evaluated
     the management control program as it relates to the overall objective. See
     Appendix A for a discussion of the audit scope and methodology, the
     management control program, and prior audit coverage.




                                         2
           Air Force Internet Access, Practices,
           and Policies
           The Air Force had not developed adequate plans to annually review its
           Web sites. This occurred because the Director, Office of Public Affairs,
           Department of the Air Force, did not monitor the conduct of required
           annual reviews and it did not follow-up and resolve findings identified
           during the annual reviews in a timely manner. In addition, the listing of
           Air Force publicly accessible Web sites recorded in Air Force Link did
           not match the data reported in GILS. Officials stated that this occurred
           because Air Force Link was damaged when GILS was upgraded,
           resulting in a failure to maintain matching databases. As a result, the
           Air Force had 140 publicly accessible Web sites that included potentially
           inappropriate information. Further, the process for the removal of
           sensitive information was not reliable. In positive actions, the Air Force
           developed a new training program for personnel working on Web sites,
           and oversight of Air Force Web sites has improved with the
           establishment of the Air Force Web Risk Assessment Cell.

Information on Air Force Public Web Sites
    In June 2001, the Office of the Deputy Assistant Secretary of Defense
    (Intelligence) identified 140 Air Force Web sites that were publicly accessible
    and contained information that was identified with warnings such as
    “Destruction Notice,” “For Official Use Only,” “Distribution Authorized,”
    “Distribution Limited,” “Pre-decisional,” and “Secret.” All the warnings
    restrict the audience and are not for general public consumption.

    During June 2001, the Deputy Assistant Secretary of Defense (Intelligence)
    submitted information on those 140 sites and related information to JWRAC for
    analysis. If the sites are analyzed, the results of the JWRAC analysis will help
    the Air Force identify information that should not be included on Web sites
    accessible by the general public.

Annual Reviews of Air Force Web Sites
    Of the three major Air Force commands and wing level commanders visited,
    two major commands and one wing level commander did not conduct annual
    reviews since 2000. Also, the Director, Office of Public Affairs, Department of
    the Air Force, neither ensured the completion of the annual reviews nor
    resolved issues identified during the reviews.

           Air Force Special Operations Command. Personnel at the Air Force
    Special Operations Command conducted one multi-disciplinary review in the
    summer of 2000. Air Force officials did not prepare a written report on the
    review results but would alert page maintainers if inappropriate information was
    posted on their Web sites. Also, Air Force officials did not conduct later


                                        3
reviews because they were awaiting a revised command instruction that
provided guidance on conducting the annual assessments. On August 3, 2001,
Air Force officials agreed to conduct the annual multi-disciplinary review as
required by Air Force Special Operations Command Instruction 33-303,
“Communications and Information,” November 1, 1999.

        Air Mobility Command. Officials from the Air Mobility Command
conducted a multi-disciplinary review in early 1999, and sent the results to
Headquarters U.S. Air Force, Communication and Information. The results of
the review indicated that sensitive information did not appear on publicly
accessible Web sites. Since 1999, officials have not conducted further reviews.
However the command office of public affairs reviewed all changes to the
command Web sites. The officials stated that the risk of improper data located
at the Web site was reduced.
        375th Airlift Wing. The 375th Airlift Wing conducted a multi-
disciplinary review in 1999, and reported the results to the Vice Commander,
Air Mobility Command. The results of the review indicated that sensitive
information did not appear on publicly accessible Web sites. However, the
375th Airlift Wing had not performed a review subsequent to 1999 because
officials stated that they were not tasked to conduct the review.

        Air Force Public Affairs. Officials from the Office of Public Affairs,
Department of the Air Force, and the Headquarters U.S. Air Force,
Communication and Information required the annual multi-disciplinary reviews
in March 2001, with completion by April 2001. However, they did not
followup with major command and air wing level commanders who did not
respond by the due date. This occurred because of personnel changes and the
followup duties remained unassigned. In addition, the Office of Public Affairs,
Department of the Air Force, did not follow up and resolve findings identified
during the annual reviews in a timely manner. During the audit, Air Force
officials from the Office of Public Affairs, Department of the Air Force, agreed
that a process to ensure that major Air Force commands and wing level
commanders conduct annual reviews and establish a followup system to resolve
issues identified during the annual reviews was needed.

The annual multi-disciplinary reviews are a necessary part of Web site
administration. The reviews help ensure that only information germane to the
general public is posted for review and public dissemination. Although Air
Force Instruction 33-129 requires an annual review, and the Office of Public
Affairs, Department of the Air Force, and the Headquarters U.S. Air Force,
Communication and Information Office jointly tasked the effort in March 2001,
a process is needed to ensure that all annual reviews are conducted, results are
reported to the Chief Information Officer of the Air Force, and a followup
system is in place to ensure corrective actions are implemented when
inappropriate postings are identified.




                                    4
Web Site Registration in Air Force Link and Government
 Information Locator Service
    Listings of Air Force Web sites accessible to the general public as shown in Air
    Force Link are different from those registered in GILS. As of August 22, 2001,
    there were 607 registered Air Force Web sites listed on Air Force Link. There
    were 421 Air Force listings in GILS. Only 170 were listed at both sites with the
    remainder listed either only in GILS (251) or with Air Force Link (437). Air
    Force officials from the Office of Public Affairs, Department of the Air Force,
    stated that Air Force Link was damaged when GILS was updated, resulting in a
    failure to keep the two databases identical. In addition, officials stated that they
    revised the registration process since May 2001 so that the registration
    information directs registrants to the GILS Web site. However, they stated that
    they did not have the resources to compare the lists of publicly accessible Air
    Force Web sites recorded in the Air Force Link to those reported in GILS.

    Although registration is a requirement for Air Force Link and GILS, there is no
    requirement to ensure that both listings are identical and current. As part of the
    multi-disciplinary annual review, major commands and wing level commanders
    should ensure that the information in both listings are current, identical, and
    discrepancies reported and corrected. Oversight and identical registration will
    ensure that Air Force officials have a listing of all publicly accessible Web sites
    so that when policy changes occur, it can be disseminated to Web officials;
    when training requirements are established, training can be planned and taken;
    and when performing annual reviews, all publicly accessible sites can be
    analyzed. Air Force Instruction 33-129 must be revised because it only requires
    the annual review to analyze the Web sites and pages rather than the validity,
    currency, and consistency of information included in Air Force Link and GILS.

Training of Web Personnel
    The Air Force Communications Agency is developing a computer based training
    course for Web masters and other Web administration personnel such as page
    maintainers. A Web master is a system administrator for a Web server, which
    hosts the Home Page. The Web master is responsible for operations of the
    server, security, maintenance, registration with Air Force Link, and posting of
    appropriate information on a Web site. A page maintainer assists the Web
    master implementing access and security controls over the Web site, and also
    develops and maintains subordinate pages, reviews, and documents; obtains
    release approval on material; validates links to ensure proper access and control;
    and ensures outdated data is removed from a Web site. The course includes a
    4-hour session with a 1-hour review followed by questions that must be
    answered with a 70 percent correct score for successful completion of the
    course. Instruction topics include Web administration, roles of personnel, the
    Web server, system security, Web site establishment, page design, and the
    collection of information.




                                         5
    The training will enable participants to perform essential Internet administration
    tasks and manage the enterprise in a secure manner. Air Force officials indicate
    that the course will be a mandatory requirement for current Web masters and
    other Web personnel. In addition, newly designated personnel must take the
    course before they are assigned Web administration duties. Air Force officials
    also plan to include the course as a requirement for other network professionals.

    The course development is a positive initiative and will ensure that individuals,
    who are assigned the responsibility for Web site administration, will receive
    training on policy and practice.

Air Force Web Risk Assessment Cell Established
    In August 2000, the Air Force established an Air Force Web Risk Assessment
    Cell that is responsible for vulnerability analyses and threat assessments of the
    content of Air Force Web sites. The cell analyzes content and data on Air
    Force Web sites. It also reviews cross sectional Web information, trend
    analysis, and data aggregation where unclassified information from multiple
    Web sites could be combined to create sensitive or classified information that
    could pose a threat to ongoing operations or personnel. Also, it reviews Air
    Force Web sites for compliance with Air Force instructions, ensures recognition
    and reporting of vulnerabilities at one or multiple Web sites, and notifies
    officials of the results. The cell reports routine observations on a scheduled
    basis to the commanders of major commands, direct reporting units and field
    operating agencies, and reports critical observations immediately to respective
    Air Force officials.

    The cell has only issued one report dated April 2, 2001. The report was
    addressed to Headquarters U.S. Air Force, Communications and Information,
    and identified six Air Force sites with “For Official Use Only” information,
    sensitive information, and access issues. The report stated that officials were in
    the process of defining the report format and frequency. When the report was
    issued in April 2001, four of the six identified issues were closed and Air Force
    officials were addressing the other two. Air Force officials informed us that
    they subsequently defined the resources needed to perform the review, including
    funding and training requirements for involved personnel, and the process for
    reporting and following up results. The cell began further assessments in
    September 2001.

    The establishment of the Air Force Web Risk Assessment Cell will complement
    the Joint Web Risk Assessment Cell. It will provide the Air Force an
    assessment of the content of its Web sites and will help to deter Web site
    misuse.




                                         6
Summary
    GILS was established to help citizens identify, locate, and retrieve information
    about their government. Web sites must be informative and contain only
    information appropriate for posting. To achieve this, managers who are
    responsible for Web administration including posting information on Web sites,
    must be aware of the policy and process for establishing and revising Web sites
    as well as appropriate Web page content. Training in Web site administration is
    a first step to safeguarding sensitive information along with the establishment of
    an oversight Web risk assessment cell. In addition, performing annual multi-
    disciplinary reviews is imperative. Further, a listing of Web masters and Web
    sites that are consistently reported in DoD and Air Force databases will help
    facilitate the distribution of new policy, assist in the oversight of known public
    Web sites, and ensure training of appropriate officials. All of those steps will
    help prevent the disclosure of sensitive movements of military assets or
    personnel; locations of units, installations, or personnel; personal information
    protected under the Privacy Act; copyright information; trademarks and logos;
    and classified information at Air Force publicly accessible Web sites.

Recommendations and Management Comments
    1. We recommend that the Director, Office of Public Affairs, Department
       of the Air Force:

          a. Establish a process for conducting annual multi-disciplinary
    reviews of Web sites and for reporting the review results to the Chief
    Information Officer, Department of the Air Force.

            b. Establish a followup system to ensure corrective actions are
    implemented when inappropriate postings to Air Force Web sites are
    identified.

    2. We recommend that the Chief Information Officer, Department of the
       Air Force revise Air Force Instruction 33-129, “Transmission of
       Information via the Internet”, April 4, 2001, to require annual reviews
       that verify and match data contained in Air Force Link with data
       contained in Government Information Locator Service.

    Management Comments. The Chief Information Officer, Department of the
    Air Force, who responded to our memorandum to the Assistant Secretary of the
    Air Force (Financial Management and Comptroller), concurred. Specifically,
    the Office of Public Affairs, Department of the Air Force, is establishing a
    process to ensure information is screened prior to posting. Web masters will
    review Web sites for unauthorized information and Public Affairs will
    accomplish annual and spot reviews to verify compliance with policy and assure
    content accuracy. The Air Force intends to develop and implement the review
    process within 6 months. The Chief Information Officer also stated that the
    Deputy Chief of Staff, Communications and Information, Department of the Air
    Force, had already begun the process of issuing a revised Air Force Instruction
    33-129, “Transmission of Information Via the Internet.” In addition, the Chief


                                        7
Information Officer, Department of the Air Force will ensure that Air Force
Link and Government Information Locator Service data are consistent and that
public Web sites do not disclose inappropriate data.




                                  8
Appendix A. Audit Process

Scope and Methodology
    We visited three major Air Force commands including the Air Force Special
    Operations Command, the Air Mobility Command, and the Air Education and
    Training Command. We selected the Air Force Special Operations Command
    because it supports a unified DoD command. We selected the Air Mobility
    Command because it was located at the site of the Air Force Communications
    Agency where Web training is being developed, and we selected the Air
    Education and Training Command because it was located near the Air Force
    Joint Web Risk Assessment Cell. The Air Wings visited include the 375th
    Airlift Wing, the 16th Special Operations Wing, and the 12th Flying Training
    Wing that were located at the major commands visited. Although we reviewed
    three Air Force major commands and three Air Force air wing commanders,
    our results do not reflect a projection of all Air Force major commands and air
    wing commanders. We reviewed and evaluated Web site policies of the Air
    Force for Web site locations available to the public. We conducted discussions
    with Air Force officials to evaluate whether policies and practices were
    adequate, and we reviewed records and documents from December 1998 until
    August 2001.

    Audit Type, Dates and Standards. We performed this program results audit
    from May 2001 through September 2001 in accordance with generally accepted
    government auditing standards.

    Use of Computer-Processed Data. We relied on computer-processed data
    without performing tests of system general and application controls to confirm
    the reliability of the database. However, not establishing the reliability of the
    database will not affect the results of our audit. We relied on judgmental
    sampling procedures to develop conclusions on this audit.

    Use of Technical Assistance. A computer specialist from the Information
    Systems Directorate, Office of the Assistant Inspector General for Auditing,
    DoD, assisted the auditors in reviewing the registration of Web sites in the Air
    Force Link and GILS databases. The computer specialist performed a
    comparison of the databases to determine the Web sites that were contained in
    both databases.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Information Security high-risk area.




                                         9
Management Control Program Review
    DoD Directive 5010.38, “ Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Controls (MC) Program
    Procedures,” August 28, 1996, require DoD managers to implement a
    comprehensive system of management controls that provide reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of Air Force management controls over DoD and Air Force policies
    and practices for Web site administration and oversight. In assessing those
    controls, we evaluated policies and practices on how Government or other
    servers host official Air Force Web sites, and how the Air Force registers and
    monitors Web sites for compliance with policy and safeguards sensitive
    information. We reviewed management’s self-evaluation applicable to those
    controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Air Force as defined by DoD Instruction 5010.40.
    Air Force management controls for oversight of Air Force Web sites were not
    adequate to identify a complete listing of Web sites, conduct annual multi-
    disciplinary reviews, and establish a followup system to track inappropriate
    information posted. The recommendations, if implemented, will improve the
    oversight and Web site administration process. A copy of the report will be
    provided to the senior officials responsible for management controls in the
    Office of the Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence).

    Adequacy of Management’s Self-Evaluation. The Director, Office of Public
    Affairs, Department of the Air Force, did not identify oversight of Air Force
    Web sites as an assessable unit and, therefore, did not identify or report the
    material management control weakness identified by the audit.

Prior Coverage
    General Accounting Office

    During the last five years, GAO has issued two reports on the issue of Internet
    privacy.

    GAO Report No. GAO-01-147R “Internet Privacy: Federal Agency Use of
    Cookies,” October 20, 2000

    GAO Report No. GAO/AIMD-00-296R (OSD Case No. 2074) “Internet
    Privacy: Comparison of Federal Agency Practices With FTC' Fair Information
    Principles,” September 11, 2000



                                       10
Inspector General, DoD

Inspector General, DoD, Report No. D2001-130, “DoD Internet Practices and
Policies,” May 31, 2001

Air Force Audit Agency

Air Force Audit Report No. 99066038, “Web Page Management,”
November 8, 2000




                                11
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director, Secretary of the Air Force, Office of Public Affairs

Other Defense Organization
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
     Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         12
Department of the Air Force
Comments




                   13
Audit Team Members
The Acquisition Management Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Mary Ugone
Thomas S. Bartoszek
Thomas J. Hilliard
Lisa E. Novis
Thelma E. Jackson
Carrie Gravely
Mandi Markwart
Patrice Cousins
Constance Halahan
Ann Ferrante
Jenshel D. Marshall
